INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES (G-404)

                                                                    September 3, 2004

To:    Giovanni Prezioso
       James McConnell

From: Walter Stachnik

Re:    Legal Review of Procurement Actions (OIG-404)

During an investigation recently conducted by the Office of Inspector General (OIG-
404), it came to our attention that the Office of Administrative Services (OAS) approved
a subcontract for certain services for a firm fixed price of approximately $200,000, while
legal review of this matter was still pending in the Office of General Counsel (OGC).
OAS informed us that it had been told to notify the contractor to proceed with the
subcontract. In addition, we learned that this subcontractor began work after receiving
verbal authorization, but before the appropriate contractual documents (i.e., a
procurement requisition and task order) were executed. OAS indicated that this was a
rare case and that verbal authorization to proceed was given based on urgent and
compelling reasons.

We also found during our investigation that OGC did not review an executed Justification
and Approval for Other than Full and Open Competition (J&A) for a related subcontract
in the amount of approximately $200,000. OGC had participated in discussions
concerning the subcontract and had agreed that OAS could issue a task order for the work
under an existing services contract. OGC informed us that a J&A is not required at the
subcontract level. Rather, in reviewing requests for approval of subcontracts, the
contracting officer must consider whether adequate price competition was obtained or its
absence was properly justified. FAR 44.204(a)(5).

An existing Memorandum of Understanding (MOU) between the Office of the Executive
Director and OGC, dated February 6, 1995, requires that OGC review significant
procurement actions at critical phases of the procurement process to ensure legal
sufficiency. The current MOU does not specify whether OGC’s review should be
reflected in writing.

In order to ensure that significant procurement actions are properly reviewed prior to
their occurrence and that procurement actions are properly documented, Commission
controls in this area should be improved.
      Recommendation A

      OAS and OGC should continue to follow the procedures set forth in their 1995
      MOU and should develop additional policies and procedures that will improve
      communications between these Offices concerning procurement actions. In
      particular, these Offices should consider requiring that, as early in the
      procurement cycle as possible, OAS provide OGC with appropriate time to
      review for legal sufficiency complex or significant procurement actions (e.g.,
      acquisitions above an agreed upon dollar threshold, with other than full and open
      competition, that present legal questions, etc.), and that OGC’s legal review be
      documented in writing before the action is taken. These Offices should also
      consider requiring that OAS or OGC prepare periodic status reports concerning
      pending significant procurement actions and circulate these reports for review by
      appropriate staff members.

      Recommendation B

      OAS should establish procedures to ensure that the appropriate contractual
      documents are executed before any work is performed, including procedures for
      expediting the processing of paperwork in situations where there are urgent and
      compelling reasons to proceed quickly.

cc:   Peter Derby
      Darlene Pryor
      Richard Humes
      George Brown
      Donald Sherman
      Linda Sudhoff




                                                                                          2
